No. 19-83

In The
Supreme Court of the United States

VERONICA W. OGUNSULA,
Petitioner
vs.
STAFFING NOW, INC.
Respondents
On Petition for Writ of Certiorari to the
United States Court of Appeals for the District
of Columbia

Petition For Rehearing

Veronica W. Ogunsula, Pro Se
9801 Apollo Drive #6334
Largo, Maryland 20792
240-486-1427
Nona.Qgunsula@gmail.com
Petitioner

TABLE OF CONTENTS
INTRODUCTION ....................................................... 1
I. The EEOC Lacks The Resources To Fully
Investigate and Pursue Every Meritorious Claim It
Receives.......................................................................... 2
II.
Hiring Discrimination, especially for
Temporary Staffing Applicants Is Most Akin To
Hotel/Public Accommodation Discriminatory
Practices..................................................................

4

CONCLUSION

10

APPENDIX.....

12

TABLE OF AUTHORITIES
Cases
Desert Palace vs Costa, 539 U.S. 90, 2003.............. 7
Fahim vs. Marriott Hotel Services 551 F.3d 344
Court of Appeals, 5th Circuit 2008,........................ 8
Furnco Constr. Corp. v. Waters, 438 U.S. 567, 577,
1978
6, 8
Occidental Life Insurance Co. of CA vs EEOC, 432
U.S.355 at 361-66, 1977............................................ 3
Students for Fair Admissions, Inc. vs. President and
Fellows of Harvard College, Case l:14-cv-14176ADB, Docket No. 672, 9/30/19.................................. 6

i

INTRODUCTION
In The
Supreme Court of the United States
VERONICA W. OGUNSULA,
Petitioner
vs.
STAFFING NOW, INC.
Respondents

On Petition for Writ of Certiorari to the United
States Court of Appeals for the District of
Columbia

Petition For Rehearing

Pursuant to Rule 44 of this Court, the Petitioner,
Veronica W. Ogunsula, hereby respectfully
petitions for rehearing of its order dated October
7, 2019, which denied certiorari, and that the
Court now grant certiorari.
This case alleges employment discrimination
committed by the Respondent, Staffing Now, Inc.,
under Title VII of the 1964 Civil Rights Act and

1

Age Discrimination in Employment Act of 1991
based on race, national origin, and age.
On October 7, 2019, the U.S. Supreme Court
denied a Petition for Writ of Certiorari.
The Petitioner recognizes that it is rare for this
Court to grant rehearing, however in this case she
believes that a grant of rehearing is warranted.
The Petitioner wishes to make two points:
I.

The EEOC Lacks The Resources To Fully
Investigate and Pursue Every Meritorious
Claim It Receives.

It is incumbent upon this honorable Court, As
Congress intended, to put forth rulings that allow
and enable the pro se plaintiff (private attorney
general) and private lawyers to put forth their best
cases.
For fiscal year 2016, individuals filed a total of
97,443 charges with the Equal Employment
Opportunity Commission (EEOC). The EEOC
litigated 114 (0.12%) cases that fiscal year and
issued 81,129 Notices to Sue (83.3%). “For that
same period, according to a Fast Company article,
7,239 (7.4%) cases went onto lawsuits—less than a
tenth of the charges EEOC gave a green light to
over the same time frame.”1 The EEOC does not
have the human or investigative resources to
Captain, Seth, “Workers Win Only 1% Of Federal Civil
Rights Lawsuits At Trial”, Fast Company, 7/31/17

2

investigate the volume of charges it receives, or to
file lawsuits (in a timely manner as required by
statute) for all of the violations it finds. (See
Occidental Life Insurance Co. of CA vs EEOC, 432
U.S.355 at 361-66, 1977). So then it falls to private
lawyers and pro se plaintiffs to seek civil remedies
or redress in the Courts.
Employees are most likely to represent
themselves, especially in an economic downturn.
Many employees have had to forgo litigation
because of the costs to procure a lawyer and the
on-going legal costs for events like depositions,
motions to the court, discovery, and trial, etc.
In this environment where there is an increased
burden on the pro se plaintiff because of their
unfamiliarity with legal procedure and case law,
etc., they should not be overburdened with
defendants not being non-responsive to a plaintiff
regarding requests for discovery information when
in fact they would be compelled to provide the
same type of information to the EEOC or a
plaintiffs attorney. It is a disservice to hard­
working individuals when Pro Se plaintiffs are
ruled against without notice because their Motions
are not technically compliant. Or their Discovery
Requests or Interrogatories are ignored and
dismissed because the Defendant views them as a
nuisance. Indeed it becomes an injustice for
earnest pro se plaintiffs to be bullied by
defendants who already have an enormous
amount power because they hold the keys to the
data the plaintiff needs. Unlike some may believe,

3

the majority of pro se plaintiffs do not elect to
prosecute their case because of arrogance. It is
usually a financial necessity.
Given the long standing history of discrimination
and disparate treatment in the U.S. workforce
that still persists today for especially Black
Americans who continue to be plagued by hiring
discrimination and an unemployment rate that is
nearly double that of their white counterparts
(regardless of educational attainment). And that
rate that has not declined in the last 25 to 50
years. This Court is strongly encouraged to
consider the burden placed on pro se plaintiffs in
the prosecution of cases as well as the pleading of
those cases.
To allow a defendant to ignore a Plaintiff
interrogatories or respond that the simple data
requests by the Plaintiff is “overly broad, unduly
burdensome, and seeks information that is not
relevant to Plaintiffs claims”, this is a manifest
injustice when this data is the very information
needed to defeat a motion for summary
judgement. (See Appendix 1)

II.

Hiring Discrimination, especially for
Temporary Staffing Applicants Is Most
Akin To Hotel/Public Accommodation
Discriminatory Practices

4

Hiring discrimination is most akin to
housing/hotel discrimination or discrimination
that occurs with regard to public accommodations.
An applicant to temporary agency is similar to a
hotel guest. The hotel guest probably does not
know the demographic data of the hotel’s current
guests/occupants or the hotel’s/employer’s motives
for denying a request for accommodation or a
refusal to hire. The applicant can only relate their
discriminatory experience with employer. Or in
the case of a hotel guest, the person requesting a
room at a hotel can only relate their experience of
being treated in a discriminatory manner, being
asked for information regarding their protected
class, and not being given accommodations or
being turned away when the hotel appears to have
vacancies or continues to offer services to other
non-minority guests.
In the case of Comcast Corporation vs National
Association of African American-owned Media, et
al., that was argued before the U.S. Supreme
Court on November 13, 2019, Justices Kagan,
Gorsuch, Sotomayor, and Breyer, all posed
questions that stressed the importance of
discovery in ascertaining the motives and state of
mind of the opposing party.2 Before a case/claim)
can be presented regarding a mixed motive,
motivating factor, and/or but for claim, the
employer must provide full and clear responses to
2 See Comcast Corporation vs National Association of
African American-owned Media, et al., Case No. 18-1171,
U.S. Supreme Court, Transcript of Oral Argument,
November 13, 2019, pgs. 8, 11,14, 26, 46, 50, and 61)

5

the discovery request for hiring data (including
protected class information, qualifications and
skills of applicants) and positions available. This
information is required at the bare minimum. As
shown in excerpts from the Plaintiffs
Interrogatories to the Defendant, Staffing Now,
Inc., in Appendix 1, this information was
requested from the Defendant. Staffing Now, Inc.
refused to provide the requested information in
discovery. It is presumed that acts, if otherwise
unexplained, are more likely than not based on
impermissible factors. (See Furnco Constr. Corp.
v. Waters, 438 U.S. 567, 577, 1978)
In a September 30, 2019 decision by the U.S.
District Court of Massachusetts, Students for Fair
Admissions, Inc. vs. President and Fellows of
Harvard College, both the plaintiff and the
defendant used data provided by the defendant to
present their respective cases regarding
discrimination of applicants. Based on a court
order, Harvard provided applicant-by-applicant
admissions data for more than 150,000 domestic
applicants to Harvard’s classes of 2014 through
2019.3.
Moving back to the example of discrimination in
public accommodations, only the hotel owners
truly know the demographic statistics of its guests
because it greets all of its guests. In the same way,
only the employer, or the institution is in full
3 Students for Fair Admissions, Inc. vs. President and Fellows of
Harvard College, Case l:14-cv-14176-ADB, Docket No. 672, 9/30/19

6

custody of its applicant data. It would be
impossible or nearly impossible for an applicant to
put forth their best case without full disclosure of
the requested data. The numbers matter. The data
can be used as circumstantial evidence. (See
Desert Palace vs Costa, 539 U.S. 90, 2003) This
present case also has applicant testing data that
can be used as evidence.
To say that a plaintiff is not entitled to the most
common relevant demographic data regarding
applicants and the workforce of the employer
promotes a method of chitlins employment
discrimination suits and thereby putting
aggrieved plaintiffs, especially pro se plaintiffs, at
a sore disadvantage.
Additionally, the hotel/public accommodation
example sheds light on the temporary staffing
hiring model because in most cases a guest at a
hotel makes a reservation for a room, not a certain
room, but a room with certain characteristics. In
the same way an applicant at a temporary staffing
agency applies for a type of temporary position
based on their skills. When you are applying for a
temporary position, just like when you make a
request for temporary accommodations at a hotel,
you are applying for an accommodation with
certain characteristics not a specific room, or for
example Room 573.
If the hotel guest believes that they were
discriminated against in being denied a room, and
they sue, the hotel can rebut their claim of

7

discrimination by offering evidence of situations to
the contrary. In the case of Fahim vs. Marriott
Hotel Services 551 F.3d 344 Court of Appeals, 5th
Circuit 2008, Marriott provided evidence (an
objective report) of their reason rebutting the
plaintiff s claims of discrimination. (The
McDonnell Douglass burden shifting framework
was used by the Court in this case.) In the present
case, Staffing Now, Inc. never (in discovery or
otherwise) offered objective evidence of their
rebuttal of discrimination.
Lastly the District Court and Appeals Court
disagreed with the plaintiff regarding a prima
facie case was made under the McDonnell
Douglass framework. The plaintiff contents that
she did make her prima facie case and offers that
if the defendant remained in business and
continued to offer administrative positions for
which she did everything within her power to
apply for a position, then she made her prima facie
case. (See Furnco Constr. Corp. v. Waters, 438
U.S. 567, 577, 1978)
It should be noted that the defendant even today
continues to offer administrative temporary
assignments.
It then becomes incumbent upon the defendant to
offer a reason why the plaintiff was not hired for a
position. Not only must they offer a reason they
have a production requirement under the
McDonnell Douglass framework. As shown in the
Appendix, Interrogatories #18, they offered a

8

reason but no evidence (e.g. report, data, etc.) for
said reason.
Society benefits when both the employer and
employee are provided an opportunity to fulfill
each other’s need for resources without
discriminatory regard to race, age, creed or sex.
Indeed, this should be our highest aim.

9

CONCLUSION
For the foregoing reasons set forth in the Petition
for Rehearing, as well as in the Petition for
Certiorari previously filed, this Petitioner is
requesting the U.S. Supreme Court grant this
Petition For Rehearing and Certiorari.
Dated:

November 1, 2019

Respectfully submitted,

Veronica W. Ogunsula, Pro Se

CERTIFICATE

This Petition is being presented in good faith and
not for delay and limited to the grounds specified
in Rule 44.2.
Gpemnica/
Veronica W. Ogunsula, Pro Se

10

Additional material
from this filing is
available in the
"i

Clerk's Office,

